U.S. CONSUMER PRODUCT SAFETY COMMISSION




OFFICE OF THE INSPECTOR GENERAL



 SEMIANNUAL REPORT TO CONGRESS



  October 1, 2013 – March 31, 2014
                               EXECUTIVE SUMMARY

    This semiannual report summarizes the major activities
performed by the Office of the Inspector General during the
reporting period, October 1, 2013 through March 31, 2014.
During the reporting period, this office worked on nine
audits or reviews.   At the end of the reporting period,
five audits or reviews and five investigations were in
progress.

    The Office of the Inspector General received a number
of complaints during the reporting period, ten of which
resulted in the initiation of a formal investigation.
Five investigations were closed or transferred during the
reporting period.    Management officials acted on the
recommendations made in the completed investigations from
the previous reporting period in all but one case; final
action in that case is pending.

     The Office of the Inspector General continues to be
involved with the Council of the Inspectors General on
Integrity and Efficiency and the Council of Counsels to the
Inspectors General.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   1
                                    INTRODUCTION

U. S. CONSUMER PRODUCT SAFETY COMMISSION

     The U.S. Consumer Product Safety Commission (CPSC) is an
independent regulatory agency created in 1972, under the provisions
of the Consumer Product Safety Act (P.L. 92-573) to protect the
public against unreasonable risks of injuries associated with
consumer products. Under the Consumer Product Safety Act and the
Consumer Product Safety Improvement Act, Congress granted the CPSC
broad authority to issue and enforce standards prescribing
performance requirements, warnings, or instructions regarding the
use of consumer products. The CPSC also regulates products covered
by a variety of other acts, such as the Virginia Graeme Baker Pool
and Spa Safety Act, the Children’s Gasoline Burn Prevention Act,
the Flammable Fabrics Act, the Federal Hazardous Substances Act,
the Poison Prevention Packaging Act, and the Refrigerator Safety
Act.

     The CPSC is headed by five Commissioners appointed by the
President with the advice and consent of the Senate. The Chairman
of the CPSC is designated by the President.            The CPSC’s
headquarters is located in Bethesda, MD.     The agency has field
personnel stationed throughout the country. The CPSC had a budget
of $118 million and 548 authorized full-time equivalent positions
for FY 2014.

OFFICE OF THE INSPECTOR GENERAL

     The Office of the Inspector General is an independent office
established under the provisions of the Inspector General Act of
1978, as amended by the Inspector General Act Amendments of 1988,
and the Inspector General Reform Act of 2008.       The Inspector
General Act gives the Inspector General the authority and
responsibility to:

       •   conduct and supervise audits and investigations of
           CPSC programs and operations;

       •   provide leadership, coordination, and recommend
           policies for activities designed to: (i) promote
           economy, efficiency, and effectiveness in the
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   2
           administration of the CPSC’s programs and operations
           and (ii) prevent and detect fraud, waste, and abuse of
           CPSC programs and operations; and

       •   keep the Chairman and Congress fully and currently
           informed about problems and deficiencies related to
           the administration of CPSC programs and operations and
           the need for progress or corrective action.

     The Office of the Inspector General investigates complaints
and information received concerning possible violations of laws,
rules, and regulations, mismanagement, abuse of authority, and
waste of funds.      These investigations are in response to
allegations, complaints, and information received from CPSC
employees, other government agencies, contractors, and concerned
individuals.   The objective of this program is to ensure the
integrity of the CPSC and guarantee individuals fair, impartial,
and independent investigations.

     The Office of the Inspector General also reviews existing and
proposed legislation and regulations related to the programs and
operations of the CPSC concerning their impact on the economy and
efficiency in the administration of such programs and operations.

     The Office of the Inspector General is authorized seven full-
time equivalent positions for FY 2014: the Inspector General, a
Deputy Inspector General for Audits, an Attorney-Investigator, an
office manager, an Information Technology auditor, and two line
auditors.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress       3
                                   AUDIT PROGRAM
     During this period, the Office of the Inspector General worked
on nine audits and reviews. A summary of each follows:


AUDIT OF FINANICAL STATEMENTS

     The Consumer Product Safety Commission is required to
submit audited financial statements in accordance with the
Accountability of Tax Dollars Act of 2002, which retroactively
implements the Chief Financial Officers Act of 1990. To conduct
this audit, the CPSC OIG contracted with CliftonLarsonAllen
(CLA), an independent certified public accounting firm. The
contract requires that the audit be performed in accordance with
Generally Accepted Government Audit Standards and the Financial
Audit Manual.   CLA audited the CPSC’s financial statements as
of September 30, 2013; related notes for the year then ended,
and considered internal control over financial reporting and the
CPSC’s compliance with laws and regulations.

     The objective of the audit was to express an opinion on the
fair presentation of the financial statements. In connection
with the audit, CLA also considered the CPSC’s internal control
over financial reporting and tested the CPSC’s compliance with
certain provisions of applicable laws and regulations that could
have a direct and material effect on its financial statements.
The financial statements of the CPSC as of September 30, 2012,
were not audited by CLA. As part of CLA’s audit of the FY 2013
financial statements, they also audited adjustments described in
Note 15 of the Financial Statements that were applied to restate
the FY 2012 financial statements. In CLA’s opinion, such
adjustments were appropriate and had been properly applied.

     In CLA’s opinion, the financial statements present fairly,
in all material respects, the financial position, net cost,
changes in net position, budgetary resources, and custodial
activity of the CPSC as of, and for the year ending September
30, 2013, in conformity with accounting principles generally
accepted in the United States of America.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   4
     CLA was not required to and did not express an opinion on
the overall effectiveness of the CPSC’s internal control.
However, CLA did identify deficiencies in internal control that
CLA would consider to be a material weakness. This material
weakness in internal control related to the capitalization of
leasehold improvements. The CPSC restated its FY 12 Financial
Statements to correct its handling of the capitalization of
leasehold improvements.

     CLA did not test compliance with all laws and regulations
applicable to the CPSC. However, CLA’s tests of compliance with
laws and regulations described in the audit report disclosed
instances of noncompliance with laws and regulations that are
required to be reported under U.S. Generally Accepted Government
Audit Standards or OMB guidance. At the time of the audit, the
CPSC had acknowledged one violation of the Antideficiency Act.
In fiscal year 2012, the CPSC exceeded an appropriation limit on
Reception and Representation expenses. This violation had been
appropriately reported. CLA found that at the time of the
audit, the CPSC had not reported a second potential violation.
This violation related to the use of appropriated funds to pay
expenses associated with the CPSC’s telework program. An
earlier report from the OIG found that this potential violation
had in fact occurred and should be reported. At the close of
the audit, the agency had not taken final action on the matter.

     We reviewed CLA’s report and related documentation and made
necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with Generally
Accepted Government Auditing Standards, was not intended to
enable the OIG to express, and we do not express an opinion on
the CPSC’s financial statements; nor do we provide conclusions
about the effectiveness of internal control or conclusions on
CPSC’s compliance with laws and regulations. CLA is responsible
for the referenced auditor’s report. However, the OIG review
disclosed no instances where CLA did not comply, in all material
respects, with Generally Accepted Government Auditing Standards.


AWARDS PROGRAM AUDIT

     The goal of the CPSC’s Awards program is to motivate employees
by recognizing and rewarding those who attain high levels of
performance, thereby contributing to the accomplishment of
management goals and objectives. The Awards Program was designed
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   5
to encourage employees, both as individuals and in groups, to
increase productivity and improve the efficiency and economy of
Federal government operations.

     The objectives of this audit were to ascertain the program’s
compliance with laws and regulations and to measure the
effectiveness of the program.

     To conduct this audit, the CPSC OIG contracted with
WithumSmith+Brown  (WS+B),   an   independent   certified   public
accounting firm. The contract requires that the audit be performed
in accordance with Generally Accepted Government Auditing
Standards.

     Field work on this audit was completed and management made
aware of draft findings and recommendations before the end of this
reporting period; however, the final report was not issued until
after the end of the reporting period covered by this semiannual
report. The report is available on the CPSC OIG website and will
be summarized in our next semiannual report.


FEDERAL TRANSIT BENEFIT PROGRAM AUDIT

     The Federal Transit Benefit Program (FTBP) is a transportation
fringe benefit program that offers qualified Federal employees the
option to exclude, from taxable wages and compensation, employee
commuting costs incurred through the use of mass transportation and
vanpools, not to exceed the maximum level allowed by law.        In
subsidizing the Federal employees’ cost of using public
transportation to commute to and from work, the FTBP sought to
reduce Federal employee’s contribution to traffic congestion and
air pollution and to expand the use of public transportation.

     The Washington, D.C. National Capital Region constitutes the
largest part of the FTBP. Inspectors General of various agencies
have identified numerous problems related to the transit benefits
program, including ineligible employees receiving benefits, and a
lack of agency oversight, policies, and procedures to adequately
prevent waste, fraud, and abuse.  GAO has found instances of fraud
and abuse by current and former Federal employees.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   6
     The CPSC Office of Inspector General (OIG) conducted an audit
of the FTBP administered by the agency. The OIG conducted this
audit in accordance with Generally Accepted Government Auditing
Standards. We reviewed FTBP activity at the CPSC during the period
October 1, 2011 through December 31, 2012. This included reviewing
applicable documents to understand the operations of the FTBP and
the related internal controls.         Furthermore, to evaluate
management’s remediation efforts, we performed follow-up procedures
over the findings issued in the FTBP Review this office issued in
fiscal year 2009. Finally, we assessed the agency’s compliance
with identified applicable laws, regulations, policies, and
provisions.

     Overall, we found that the CPSC had a functioning FTBP, but
the program had several internal control weaknesses. In addition,
we discovered that the program did not comply with certain
government-wide policies and procedures mandated by the U.S.
Department of Transportation, the entity responsible for the
general administration of the FTBP throughout the Federal
government.


GOVERNMENT PERFORMANCE AND RESULTS ACT AUDIT (ongoing)

     The Government Performance and Results Act of 1993 (GPRA),
as amended by the GPRA Modernization Act of 2010 (P.L. 111-352),
requires the CPSC to report annual performance data.   GPRA is
intended to improve the efficiency and effectiveness of Federal
Programs through the establishment of specific goals for program
performance. Specifically, the act requires the CPCS to prepare
multi-year Strategic Plans, Annual Performance Plans, and Annual
Performance Reports.

     The objectives of this audit are to verify and validate a
sample of performance data, published in the CPSC’s annual
performance reports, used to measure the performance of CPSC’s
programs. This audit should both ascertain CPSC’s compliance
with GPRA, as amended, and determine whether the performance
data published complies with established guidance, and is
reliable.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    7
     To conduct this audit, the CPSC OIG contracted with
WithumSmith+Brown, an independent certified public accounting
firm. The contract requires that the audit be performed in
accordance with Generally Accepted Government Auditing
Standards.


INFORMATION TECHNOLOGY INVESTMENT MANAGEMENT AUDIT (ongoing)

     The CPSIA calls for upgrades of the CPSC’s information
technology architecture and systems and the development of a
database of publicly available information on incidents
involving injury or death. The CPSIA also calls for the OIG to
review the agency’s efforts in these areas.

     To assess objectively the current status of the CPSC’s
efforts in this area, and to help provide the agency with a road
map to meet the goals set out in the CPSIA, this office has
relied upon the Government Accountability Office’s (GAO’s)
Information Technology Investment Maturity (ITIM) model. The
ITIM framework is a maturity model composed of five progressive
stages of maturity that an agency can achieve in its IT
investment management capabilities. The maturity stages are
cumulative; that is, in order to attain a higher stage of
maturity, the agency must have institutionalized all of the
requirements for one stage, in addition to the requirements for
all of the lower stages.

     The framework can be used to assess the maturity of an
agency’s investment management processes as a tool for
organizational improvement.

     The GAO’s ITIM maturity model framework offers
organizations a road map for improving their IT investment
management processes in a systematic and organized manner.
These processes are intended to: improve the likelihood that
investments will be completed on time, within budget, and with
the expected functionality; promote better understanding and
management of related risks; ensure that investments are
selected based upon their merits by a well-informed decision-
making body; implement ideas and innovations to improve process
management; and increase the business value and mission
performance of investments.


________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   8
     In 2010, under a contract monitored by the OIG, the
independent certified public accounting firm WithumSmith+Brown
(WS+B), performed an audit of the CPSC’s Information Technology
(IT) investment management processes, using the GAO’s ITIM
framework.

     According to WS+B’s findings, at the time of their initial
audit, the CPSC had reached Stage 1 of the five-stage IT
investment maturity model. The CPSC had already implemented
several of the key practices and critical processes that
constitute Stage 2, and WS+B provided recommendations on
improving the CPSC’s IT investment processes. WS+B later
conducted a follow-up assessment of the CPSC’s IT investment
process, in 2012, and determined that although progress had been
made, the CPSC was still at Stage 1.

     Another contract has been awarded to WS+B to review the
CPSC’s Information Technology Architectures with a special
emphasis on the public database. Once again, the review is
being conducted using the GAO’s ITIM framework (A Framework for
Assessing and Improving Process Maturity, GAO-04-394G).

     The audit will build upon the results of the prior
assessments of the CPSC’s IT investment management maturity and
will evaluate what improvements have been made and where
additional progress is needed.


FREEDOM OF INFORMATION ACT (FOIA) AUDIT (terminated)

     The Freedom of Information Act (FOIA) provides that any
person has a right, enforceable in court, to obtain access to
Federal agency records, except to the extent that such records
(or portions of them) are protected from public disclosure by
one of nine exemptions or by one of three special law
enforcement record exclusions. A FOIA request can be made for
any agency record.

     The objectives of this audit were to ascertain both the
CPSC’s FOIA program’s compliance with laws and regulations and
measure the effectiveness of the program. We have terminated
this audit due to a lack of resources in the OIG and the higher
priority placed on those resources by other, statutorily
required, audits or reviews.

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    9
EMPLOYEE CLEARANCE PROCEDURES AUDIT (terminated)

     It is CPSC policy that employees separating from the agency
must be cleared by appropriate CPSC personnel prior to their
departure to assure that the employee has accounted for property
entrusted to them, liquidated all debts owed to the Commission,
and fulfilled any other outstanding obligation.

     The objectives of this audit were to ascertain both the
Clearance program’s compliance with laws and regulations and
measure the effectiveness of the program. We have terminated
this audit due to a lack of resources in the OIG and the higher
priority placed on those resources by other, statutorily
required, audits or reviews.


EVALUATION OF THE COLLECTIONS OF EMPLOYEE DEBTS OWED TO THE
GOVERNMENT (ongoing)

     The Standards of Conduct for Federal employees require that
Federal Employees pay their just debts, to include debts to the
Federal Government. Despite this fact, past reviews by the IRS and
Federal Inspectors General have repeatedly found Federal employees
who are not paying their just debts to the Federal Government.

     The purpose of this evaluation is to determine if the CPSC has
adequate internal controls, policies, and procedures in place to
monitor and manage delinquent employee debt related to debts owed
to the Federal Government; and if same are functioning in a
reasonable manner. The guidelines that will be applied to evaluate
the collection of delinquent employee debt will include, but will
not be limited to: the Debt Collection Improvement Act of 1996, the
Code of Federal Regulations (CFR), and the applicable CPSC policies
and procedures.


IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT (IPERA) INSPECTION

     Improper Federal payments to individuals, organizations, and
contractors totaled an estimated $106B during fiscal year 2013.
The Improper Payments Elimination and Recovery Act of 2010 (IPERA),
as implemented by OMB Memorandum M-11-16, requires that Federal
agencies take several steps to reduce improper payments and that


________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   10
Inspectors General review annually their agency’s improper payment
reporting in their agency’s Performance and Accountability Report
(PAR) or Agency Financial Report (AFR) as appropriate.

     In 2011, as a result of an Office of Inspector General’s
review, the CPSC acknowledged that it was not in compliance with
IPERA. The agency did not conduct an initial estimate of improper
payments or a formal program risk assessment.      The PAR did not
include any information regarding the agency’s efforts to recapture
improper payments. The CPSC indicated in their 2011 PAR that in
2012 they planned to refine the risk assessment criteria such that
a, “. . . gross estimate is included and to be more substantially
compliant with OMB’s guidance and IPERA.”

     In 2012, the CPSC OIG retained the services of Withum, Smith &
Brown (WS+B) an independent certified public accounting firm, to
assess the CPSC’s compliance with IPERA.         Under a contract
monitored by the Office of Inspector General, WS+B concluded that
the CPSC was in compliance with IPERA. They found that the CPSC
had taken several steps to identify risk and establish a systematic
method to estimate improper payments.         However, they also
identified certain areas where they believed that the CPSC could
improve its process of estimating improper payments and better
comply with OMB guidance.

     To assess agency compliance with IPERA for fiscal year 2013,
the CPSC OIG retained the services of Kearney & Company (Kearney)
an independent certified public accounting firm. Under a contract
monitored by the Office of Inspector General, Kearney, issued an
inspection report regarding the CPSC’s compliance with IPERA. The
contract required that the audit be performed in accordance with
the Council of the Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspection and Evaluation.

     Field work on this audit was completed and management made
aware of draft findings and recommendations before the end of this
reporting period; however, the final report was not issued until
shortly after the end of the reporting period covered by this
semiannual report. The report is available on the CPSC OIG website
and will be summarized in our next semiannual report.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   11
FEDERAL INFORMATION SECURITY MANAGEMENT ACT REVIEW

     The Federal Information Security Management Act of 2002
(FISMA) requires each Federal agency to develop, document, and
implement an agency-wide program to provide information security
for the information and information systems that support the
operations and assets of the agency, including those provided or
managed by another agency, contractor, or other source.

     FISMA   also  requires   agency   program   officials,   Chief
Information Officers, and Inspectors General to conduct annual
reviews of the agency’s information security program and report the
results to the Office of Management and Budget (OMB).       The OIG
conducted this review in accordance with the Quality Standards for
Inspections issued by the Council of Inspectors General on
Integrity and Efficiency’s Inspection and Evaluation Committee and
not the Generally Accepted Government Audit Standards issued by the
Government Accountability Office.

     This year’s FISMA evaluation found that management continues
to make progress in implementing the FISMA requirements, although
much work remains. The CPSC’s General Support System (GSS LAN) has
completed the security accreditation process and retained an active
security accreditation. In addition, the Consumer Product Safety
Risk Management System (CPSRMS), the International Trade Data
System/Risk Automation Methodology System (ITDS/RAM) application,
and cpsc.gov completed independent security assessments.

     The agency’s system monitoring and reporting capabilities have
improved substantially. The system reporting and monitoring now
possible are far greater than system reporting and monitoring were
in the past, and management has shown a commitment to continuing to
improve these capabilities.

     Management has also substantially improved the incident
response process.    The agency’s improved system reporting and
monitoring capabilities, combined with the agency’s improved
incident handling process, have positioned management to be able to
take   proactive   steps    to   address   known   and    potential
vulnerabilities.

     Although much has been accomplished, a good deal of work
remains.   The OIG noted that management has not updated and
approved the major applications’ security documentation, nor has
management formally accepted the risk associated with operating
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   12
these applications.     Additionally, management has not fully
implemented the NIST SP 800-37 Risk Management Framework.
Management has not accredited or explicitly authorized the
operation of 88 of the 91 inventoried CPSC applications in
accordance with OMB Memorandum M-10-15.

     This year’s review included 64 findings (8 high-risk
findings).   The IT challenges currently facing the agency are
particularly relevant as the agency continues to deal with the
implementation of the Consumer Product Safety Improvement Act
(CPSIA), in general, and with the CPSIA’s impacts on the agency’s
IT operations, in specific.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   13
                       INVESTIGATIVE PROGRAM
      A number of individuals contacted the Office of the Inspector
General, directly or anonymously, during the reporting period to
discuss their concerns about matters involving CPSC programs and
activities. These complaints resulted in the initiation of nine
investigations. One case was transferred to this office by the
Department of Justice (DoJ).     Two cases were referred by this
office to the DoJ for criminal prosecution; one case involving a
violation of the Antideficiency Act and one case involving a
violation of 18 USC 207.      In each case the DoJ declined to
prosecute the cases criminally.     Each of these cases are being
pursued administratively.    One case was transferred to another
government agency for final disposition after initial investigation
indicated that it would be more appropriately dealt with outside of
CPSC IG channels. In one case the investigation is complete but
the case is still “open” pending final agency action and will be
reported on in the next semiannual report.

                                  Investigations
                                                                No. of Cases
                Beginning of period                                  0
                Opened                                               10
                Closed                                               4
                Transferred/Incorporated                             1
                  into existing investigation
                End of the period                                   5

REPORTABLE INVESTIGATIONS
Allegations Regarding Federal Transit Benefit Program Debit Cards

     A contractor doing business with the Bureau of Prisons,
contacted a commercial credit card processing firm and requested
that $17,636.00 in TransServe debit card transactions be processed
on their behalf under the Federal Transit Benefit Program (FTBP).
In order to justify the transaction, the contractor provided a copy
of a CPSC standard operating procedure (SoP) and their assurances
that they had been in contact with the CPSC’s FTBP coordinator who
authorized the transactions (it was later confirmed that no
communication took place between any CPSC employee and the
contractor).

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                  14
     Preliminary investigation determined that no CPSC appropriated
funds had been expended and that all of the debit cards in question
had been issued to Bureau of Prison’s personnel.       As the case
clearly fell outside the jurisdiction of this office, it was
transferred to the appropriate agency.

Allegations Regarding Enforcement of Consumer Protection Statutes

     Initial   investigation   determined   that   the   alleged
mismanagement involved the enforcement of statutes that were not
within the jurisdiction of the CPSC. The case was transferred to
the appropriate agency.

ONGOING INVESTIGATIONS

     Five investigations were ongoing at the end of the
period.   These cases involve allegations of violations of
various agency or Federal regulations and/or statutes.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   15
                                OTHER ACTIVITIES

LEGISLATION AND REGULATIONS

     The Office of the Inspector General reviews internal          and
external legislation and regulations that affect the Office of     the
Inspector General in specific, or the CPSC’s programs              and
activities, in general.     The OIG reviewed and commented          on
procedures applicable to the following subjects during             the
reporting period:

          Purpose Statute
          EO 12674 (Standards of Conduct for Federal Employees),
          18 USC 207 (Restrictions on Former Federal Employees),
          Internal Revenue Code,
          Whistle Blower Protection Act,
          Antideficiency Act,
          Consumer Product Safety Improvement Act,
          Prompt Payment Act,
          Improper Payments Elimination and Recovery Act,
          Travel Card Program,
          Debt Collection Improvement Act,
          Conflicts of Interest,
          Background Check Procedures,
          Federal Information Security Management Act, and
          Inspector General Reform Act


COUNCIL OF INSPECTORS GENERAL ON INTEGRITY AND
EFFICIENCY

     The Inspector General, as a member of the Council of
Inspectors General on Integrity and Efficiency (Council),
maintains active membership with the Council and its associated
activities. The Council identifies, reviews, and discusses
issues that are of interest to the entire IG community. The
Inspector General attended regular meetings held by the Council
and joint meetings of the Council and the GAO. The Office of
the Inspector General’s staff attended seminars and training
sessions sponsored or approved by the Council and its associated
activities.

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress      16
COUNCIL OF COUNSELS TO THE INSPECTORS GENERAL
     The Council considers legal issues of interest to the Offices
of Inspectors General.    During the review period, the Council
reviewed existing and pending laws affecting the CPSC in general
and the Office of the Inspector General in specific and provided
other support as needed to the Inspector General.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   17
                                                                              Appendix A



                  REPORTING REQUIREMENTS SUMMARY
Reporting requirements specified by the Inspector General Act of 1978, as amended, are listed
below:

      Citation                    Reporting Requirements                            See Page

Section 4(a)(2)       Review of Legislation and Regulations……………………………………………16

Section 5(a)(1)       Significant Problems, Abuses, Deficiencies……………………………4–14

Section 5(a((2)       Recommendations With Respect to Significant Problems,
                      Abuses, and Deficiencies……………………………………………………………………………4–14

Section 5(a)(3)       Significant Recommendations Included in Previous Reports
                      on Which Corrective Action Has Not Been Taken………………………None

Section 5(a)(4)       Matters Referred to Prosecutive Authorities……………………………14

Section 5(a)(5)       Summary of Instances Reported under Section 6(b)(2)…………None

Section 5(a)(6)       Reports Issued…………………………………………………………………………………………………………4–14

Section 5(a)(7)       Summary of Significant Reports………………………………………………………………4–14

Section 5(a)(8)       Questioned Costs……………………………………………………………………………………………………None

Section 5(a)(9)       Recommendations That Funds Be Put to Better Use…………………None

Section 5(a)(10)      Summary of Audit Report Issued Before the Start of
                      the Reporting Period for Which No Management
                      Decision Has Been Made……………………………………………………………………………………None

Section 5(a)(11)      Significant Revised Management Decisions……………………………………None

Section 5(a)(12)      Management Decisions with Which the Inspector General
                      Is in Disagreement………………………………………………………………………………………………None

Section 5(a)(13)      Information Described Under Section 804(b) of the Federal
                      Financial Management Improvement Act of 1996…………………………None
                      Section

Section 5(a)(14)      Information Regarding Peer Review Reports……………………Appendix B
through 5(a)(16)

Section 845 of        Significant Contract Audit Reports……………………………………………………None
The NDAA of 2008


________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                                   18
                                                                Appendix B



                             PEER REVIEW RESULTS

The last peer review conducted by another Office of Inspector
General on the CPSC’s OIG was issued on March 14, 2014, and it
is available on the CPSC OIG’s Web page. No deficiencies were
noted, no recommendations for improvement were made, no letter
of comment was issued, and this office received a peer review
rating of pass.

The last peer review conducted by the CPSC’s OIG on another
Office of Inspector General occurred on December 13, 2013, and
it involved the National Endowment of the Arts Office of
Inspector General (NEA OIG). No deficiencies were noted and no
formal recommendations were made in that review. A letter of
comment was issued to the NEA OIG.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                19
